IN THE SUPREME COURT OF THE UNITED STATES

19A427

APPLE INC.,

Petitioner,
v.
VIRNETX INC., LEIDOS, INC.,

Respondents.

CERTIFICATE OF SERVICE
I hereby certify that on this 18th day of October, 2019, I caused one copy of
the accompanying Opposition to an Application for an Extension of Time in Which
To File a Petition for a Writ of Certiorari to be served by first-class mail and email
on the counsel of record as follows:
E. Joshua Rosenkranz
ORRICK, HERRINGTON & SUTCLIFFE LLP

51West52nd Street
New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com
Counsel for Petitioner

I certify that all parties required to be served have been served. I declare under
penalty of perjury that the foregoing is true and correct.
Executed on October 18, 2019.

Counsel for Respondent VirnetX Inc.

